mwe.com
Michael B. Kimberly
Attorney at Law
mkimberly@mwe.com
+1 202 756 8901

November 25, 2020
BY ELECTRONIC FILING
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

Wilke v. PCMA, No. 20-683

Dear Mr. Harris:
I represent respondent in this case. The petition for a writ of certiorari was filed on
November 13, 2020 and docketed on November 17, 2020. Respondent’s brief in opposition is
due, without extension, on December 17, 2020.
Pursuant to Rule 30.4, I respectfully request a 29-day extension of time to file a brief in
opposition, to and including Friday, January 15, 2021. The extension is necessary in light of the
press of other business, including proximate due dates in numerous other cases before this Court
and the courts of appeals.
Thank you for your attention to this matter.

Sincerely,

cc: counsel of record for petitioner

500 North Capitol Street, NW Washington DC 20001-1531 Tel +1 202 756 8000 Fax +1 202 756 8087
US practice conducted through McDermott Will & Emery LLP.

